<html>
<title> - AN EXAMINATION OF THE OLDER AMERICANS ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
               AN EXAMINATION OF THE OLDER AMERICANS ACT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SELECT EDUCATION

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              May 24, 2005

                               __________

                           Serial No. 109-19

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-339                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON SELECT EDUCATION

                   PATRICK J. TIBERI, Ohio, Chairman

Cathy McMorris, Washington Vice      Ruben Hinojosa, Texas
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Chris Van Hollen, Maryland
Jon C. Porter, Nevada                Tim Ryan, Ohio
Bob Inglis, South Carolina           George Miller, California, ex 
Luis P. Fortuno, Puerto Rico             officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 24, 2005.....................................     1

Statement of Members:
    Hinojosa, Hon. Ruben, Ranking Member, Subcommittee on Select 
      Education, Committee on Education and the Workforce........     2
    Tiberi, Hon. Patrick J., Chairman, Subcommittee on Select 
      Education, Committee on Education and the Workforce........     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Lawrence, Joan W., Director, Ohio Department of Aging, 
      Columbus, OH...............................................     4
        Prepared statement of....................................     6
    Leos, Jesse, National Director of the SCSEP Program, SER-Jobs 
      for Progress, Inc., Irving, TX.............................    18
        Prepared statement of....................................    19
    Metzger, Jane, President Elect, Meals on Wheels Association 
      of America, Topeka, KS.....................................    13
        Prepared statement of....................................    15
    O'Donnell, Michael, Executive Director, East Central Illinois 
      AAA, National Association of Area Agencies on Aging, 
      Bloomington, IL............................................     8
        Prepared statement of....................................    10


               AN EXAMINATION OF THE OLDER AMERICANS ACT

                              ----------                              


                         Tuesday, May 24, 2005

                     U.S. House of Representatives

                    Subcommittee on Select Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
room 2175, Rayburn House Office Building, Hon. Patrick Tiberi 
[Chairman of the Subcommittee] Presiding.
    Present: Representatives Tiberi, Inglis and Hinojosa.
    Staff Present: Kevin Frank, Professional Staff Member; Lucy 
House, Legislative Assistant; Kate Houston, Professional Staff 
Member; Alexa Marrero, Press Secretary; Stephanie Milburn, 
Professional Staff Member; Deborah L. Samantar, Committee 
Clerk/Intern Coordinator; Rich Stombres, Assistant Director of 
Education and Human Resources Policy; Cheryl Johnson, Minority 
Counsel; Ricardo Martinez, Minority Legislative Associate/
Education; and Joe Novotny, Minority Legislative Assistant/
Education.
    Chairman Tiberi.A quorum being present, the Subcommittee on 
Education and the Workforce will come to order.
    We are meeting today to hear testimony, our first to begin 
an examination of the Older Americans Act. Under Committee Rule 
12(b), opening statements are limited to the Chairman and the 
Ranking Minority Member of the Subcommittee. Therefore, if 
other Members have statements, they may be included in the 
hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow Members' statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.

STATEMENT OF HON. PATRICK J. TIBERI, CHAIRMAN, SUBCOMMITTEE ON 
   SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Chairman Tiberi. Good morning. Thank you for all joining us 
at this hearing, the first hearing for the Older Americans Act, 
as this Subcommittee begins our examination of the Older 
Americans Act, which is due for reauthorization, as you may 
know.
    This Congress--as I said, this is the first in an 
anticipated series of hearings to review the law and its 
amendments enacted in 2000, explore issues facing today's 
seniors, and discuss the appropriate thorough response to the 
changing circumstances.
    I have prepared a formal opening statement for the hearing 
that I will submit for the record, but just let me say that 
today, supporting the needs of older Americans is as important 
as it ever has been. It is estimated that more than 36 million 
people in the United States are over the age of 65, and as the 
fastest-growing age group in our country, the upcoming 
reauthorization of this act is all that more important.
    In preparation for the reauthorization, we will be 
examining the current program, learning about the evolving 
issues facing older Americans, listening to seniors in their 
own words, and laying out a plan for strengthening the services 
for seniors that are authorized by this act and relied upon by 
millions of aging Americans each year.
    I am pleased to have with us this distinguished panel of 
experts to help us frame the issues for the upcoming 
reauthorization. We look forward to hearing your 
recommendations on the issues and actions for this 
Subcommittee's consideration in the future.
    Before I introduce each of our witnesses, I will yield to 
my colleague from Texas, Mr. Hinojosa, for an opening statement 
that he might have.
    [The prepared statement of Mr. Tiberi follows:]

 Statement of Hon. Patrick J. Tiberi, Chairman, Subcommittee on Select 
          Education, Committee on Education and the Workforce

    Good morning. Thank you for joining us for this hearing. The 
Subcommittee is meeting today to begin our examination of the Older 
Americans Act, which is due for reauthorization this Congress. This is 
the first in an anticipated series of hearings to review the 
implementation of the amendments to the law enacted in 2000, explore 
issues facing today's seniors, and debate the appropriate federal 
response to these circumstances.
    This year marks the 40th anniversary of the Older Americans Act. 
The Older Americans Act recognizes the specialized needs of seniors--
from nutrition and transportation to community service employment, 
recreational activities and social services--provided through a network 
that includes 56 state and 655 local agencies on aging. This year, the 
federal government invested more than $1.8 billion to support the 
delivery of these services.
    Today, supporting the needs of older Americans is as important as 
ever. It is estimated that more than 36 million people in the United 
States are over the age of 65, making it the fastest growing age group 
in our country. According to the U.S. Census Bureau, by the year 2050, 
persons over age 65 will reach nearly 90 million and comprise almost a 
quarter of the total U.S. population. These astounding statistics make 
the upcoming reauthorization of the Older Americans Act all the more 
important.
    Over the next several months, this Subcommittee will be examining 
the current program, learning about the evolving issues facing older 
Americans, listening to seniors in their own words, and laying out a 
plan for strengthening the services to seniors that are authorized by 
this Act and relied upon by millions of aging Americans each year. We 
will work with President Bush, under the leadership of Health and Human 
Services Assistant Secretary Josephina Carbonell, a recognized advocate 
for older Americans, and the community of advocates for seniors to 
ensure we're making the most out of our investment in the programs 
authorized by the Act.
    I'm pleased to have with us a distinguished panel of experts to 
help us frame the issues for the upcoming reauthorization. We look 
forward to hearing your recommendations on issues and actions for this 
Subcommittee's consideration. Before I introduce our witnesses, I will 
yield to my colleague, Mr. Hinojosa, for any opening statement he may 
have.
                                 ______
                                 

STATEMENT OF HON. RUBEN HINOJOSA, RANKING MEMBER, SUBCOMMITTEE 
 ON SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Mr. Hinojosa. Thank you very much, Mr. Chairman.
    Good morning. I would like to thank Chairman Tiberi for 
calling this important hearing. I also would like to welcome 
the witnesses. I commend our Chairman for putting together such 
an impressive panel that represents the broad range of programs 
and activities supported under the Older Americans Act.
    As we prepare for the reauthorization of the Older 
Americans Act, it is my hope that the Chairman and I will 
continue the Select Education Subcommittee's tradition of 
bipartisanship. Together we can work to strengthen and improve 
the programs that provide critical support to older Americans.
    The Older Americans Act of 1965 is the landmark legislation 
that articulated our core values as a Nation. The act begins 
with a declaration of objectives, which includes the following; 
retirement and health, honor, dignity after years of 
contribution to the economy. This is a statement of our 
national obligation to older Americans. The Older Americans Act 
represents our commitment to meeting that obligation. This law 
provides for supportive services such as transportation, 
housekeeping and personal care. It provides nutrition services, 
both in the home and in the community settings. It provides 
preventative health services and supports family caregivers. 
Finally, it protects the rights of older--vulnerable older 
Americans by combating consumer fraud and protecting seniors 
from abuse.
    Age is a fact of life; however, through the establishment 
of Social Security, Medicare and the enactment of the Older 
Americans Act, living in poverty no longer is a fact of aging. 
From 1959 to 2002, the percentage of older people living in 
poverty fell from 35 percent to 10 percent.
    Just as with the population at large, Hispanic Americans 
represent a growing percentage of older people in the United 
States. According to the Administration on Aging, by the year 
2028 Hispanic Americans will be the largest racial ethnic group 
in the over-65 age group. Unfortunately, we have not made the 
same progress in reducing poverty for our Hispanic elderly. In 
2001, roughly 22 percent of elderly Hispanics lived in poverty.
    In closing, Mr. Chairman, I would just say I am interested 
in hearing about how the programs in the Older Americans Act 
are serving the growing population of Hispanic Americans.
    Again, I would like to thank the Chairman for calling this 
hearing today. I am interested in listening to the testimony 
and discussing how we can move forward toward a bipartisan 
reauthorization.
    With that, I yield back.
    Chairman Tiberi. Thank you, Mr. Hinojosa.
    We have a very distinguished panel with us today, and I 
would like to thank each of them for coming. With that, I will 
introduce the panel. Beginning from my left to right, Ms. Joan 
Lawrence. Ms. Lawrence has served as the director of the Ohio 
Department of Aging since 1999. Prior to her appointment as 
director, she served eight terms in the Ohio House of 
Representatives, where I served with her for four of those 
terms, where she specialized in human services, healthcare and 
programs for the elderly.
    Ms. Lawrence guides the Ohio Department of Aging in its 
mission of helping senior citizens live active and healthy and 
independent lives, and promoting positive attitudes toward 
aging and older people. She has led the expansion of Ohio's 
popular PASSPORT Home healthcare program, homecare program, and 
the development of creative initiatives for seniors, including 
the addition of a prescription savings program through the 
venerable GoldenBuckeye card. Most importantly, in my mind, she 
is a constituent and a friend. Thank you for being here today.
    Mr. Michael O'Donnell. Mr. O'Donnell is an executive board 
member of the National Association of Area Agencies on Aging. 
He also serves as executive director of the East Central 
Illinois Area Agency on Aging. He has served the agency in a 
number of different capacities, including planning manager and 
associate director since 1979.
    Mr. O'Donnell has an extensive history in serving older 
Americans in the State of Illinois. Among other things, he also 
serves at the president of the Illinois Coalition of Mental 
Health and Aging, and as cochair of the Illinois Task Force on 
Grandparents Raising Grandchildren.
    Mr. O'Donnell served this country as a First Class Petty 
Officer in the U.S. Navy from 1970 to 1976. Thank you for being 
here.
    Ms. Jane Metzger is the current president-elect for the 
Meals on Wheels Association for America. Since 1997, she has 
held numerous positions with MOWAA, including annual conference 
chair, member of the certification board and vice--president of 
professional development. Ms. Metzger also serves as executive 
director of Meals on Wheels at Shawnee and Jefferson Counties, 
Inc., in the State of Kansas, a sponsor of the 2002 Meals on 
Wheels Association of America Volunteer of the Year. Thank you 
for coming.
    And last but not least, Jesse Leos. Mr. Leos is the 
national director for the SCSEP program for SER National-Jobs 
For Progress, Inc., one of 13 national grantees under the 
Department of Labor. He has worked in the workforce arena for 
over 25 years and has held various positions for both profit 
and nonprofit organizations which manage workforce programs 
throughout the Nation. He is a subject expert in WIA/TANF, food 
stamps, employer services, disability, veteran services, senior 
employment services and the one-stop shop system. He also has 
served on various boards, including the United Way, food bank 
organizations, housing nonprofits, law enforcement 
organizations and various Chambers of Commerce through Texas. 
Thank you for being here as well.
    Before the witnesses begin, I would like to remind our 
Members that we will be asking questions after the entire panel 
has testified. In addition, the Committee imposes a 5-minute 
limit on all questions.
    With that, I am going to ask Ms. Lawrence to begin the 
testimony. Thank you.

  STATEMENT OF JOAN W. LAWRENCE, DIRECTOR, OHIO DEPARTMENT OF 
                      AGING, COLUMBUS, OH

    Ms. Lawrence. Thank you, Mr. Chairman and Members of the 
Subcommittee, for giving me the opportunity to comment on the 
reauthorization of the Older Americans Act from an Ohio 
perspective.
    Congress wisely declared in the act that seniors are 
entitled to a system which assures, quote, a comprehensive 
array of community-based, long-term care services adequate to 
appropriately sustain older people in their communities and in 
their homes, including support to family members and other 
persons providing voluntary care to older individuals needing 
long-term care services, unquote.
    The Older Americans Act has produced an amazing system 
since 1965 with a modest Federal investment. A burgeoning 
network of effective services has been built upon its 
foundation, funded by Federal, State and local dollars, 
augmented by charitable contributions, as well as those of the 
individuals and families being served. For every dollar 
appropriated by the act, another 10 are added through other 
means in Ohio.
    Last year we received 54 million in Older Americans Act 
funding. What is astounding is the additional 330 million in 
Federal Medicaid and State matching funds, 19 million generated 
by 59 of Ohio's 88 counties, which have local senior service 
levies, plus another 7-1/2 million in consumer contributions. 
Few investments have such a bountiful return.
    We are grateful to Congress for enacting in the 2000 
reauthorization the National Family Caregivers Support Program. 
It is a fine example of creative and sensible program 
expansion. Because 80 percent of long-term care is provided by 
family members at no cost to government, it is prudent for us 
to support these informal caregivers. Last year this program 
served 57,000 caregivers in Ohio through information and 
referrals, through support groups, and with critically needed 
respite services.
    Consumer satisfaction surveys demonstrate overwhelming 
appreciation for what is provided. With such vital services 
available, we need to reach out to consumers through 
initiatives like the Aging and Disability Resource Centers, 
which CMS and the Administration on Aging have been funding 
jointly. We have the information seniors and their families 
need to make long-term care decisions, but unless they know 
where and how to get it, the information does no good. The 
resource centers are the front door for that information.
    In Ohio, we have an Internet-based tool to assist families 
further as they investigate long-term care options in nursing 
homes, thanks to the leadership and hard work of the Chairman 
of this Committee when he served in the Ohio House.
    Because of the linkages among Federal programs that share 
beneficiaries and missions, we believe it is important that CMS 
and AOA work even more closely together. The Assistant 
Secretary at AOA should share responsibility with CMS for 
developing, reviewing and awarding waivers and grants.
    In Ohio today, under Governor Taft's leadership, we are 
fighting to balance the State's long-term care so that real 
choice is in reach for those who need it. The reauthorized act 
should recognize the continuum of long-term care which 
commences with Older Americans Act services for those who are 
not Medicaid-eligible, 300,000 last year in Ohio. Most of 
Ohio's 12 area Agencies on Aging have a care coordination 
program for those receiving multiple non-Medicaid services.
    Next in the continuum is PASSPORT, our home- and community-
based waiver program, which serves a steadily increasing number 
today, 24,400 people. We expect to add assisted living next 
year for 1,800 persons. Our goal is nursing home diversion 
where appropriate, and we are doing it successfully.
    The Department of Aging also screens every entrant to a 
nursing home to ensure it is a suitable placement, and that an 
alternative might not be better.
    We urge you to have the revised act encourage these types 
of programs. We need to develop a sustainable long-term care 
system. The boomers are coming. Thank you.
    Chairman Tiberi. Thank you.
    [The prepared statement of Ms. Lawrence follows:]

  Statement of Joan W. Lawrence, Director, Ohio Department of Aging, 
                              Columbus, OH

    Thank you Mr. Chairman and members of the Subcommittee. I'm proud 
to present views on reauthorization from Ohio's perspective. We are the 
seventh most populous state and one which some demographers and 
marketing experts feel is representative of the nation as a whole. I'd 
like first to acknowledge the wisdom of the 89th Congress, which 
created the Older Americans Act in 1965 at a time when poverty among 
America's Elderly was epidemic. More than 30 percent lived below the 
Federal Poverty Level in 1965. A disproportionate number were widows. 
Jobs were scarce for older people, and many were forced into retirement 
by corporate policy or public law. Public transportation in urban 
centers did little to accommodate the needs of older people. And 
transportation in rural areas was, as they say in those parts, ``scarce 
as hens'' teeth.'' Nutrition funding in America was limited to school 
lunch programs. Such programs for elders did not exist.
    In preparation for today's testimony, I reviewed the enabling 
legislation for the Older Americans Act and was struck by the elegance, 
simplicity and purpose of The Act. Clearly, its intent was to help 
preserve for our elders the traditional American concept of the 
inherent dignity of the individual in our democratic society. Among its 
major objectives are these key and critical words, `` a comprehensive 
array of community-based, long-term care services adequate to 
appropriately sustain older people in their communities in their homes, 
including support to family members and other persons providing 
voluntary care to older individuals needing long-term care services.''
    How true these objectives are today. These same ideas play out now 
in Ohio's biennium budget debate. I must tell you they are at the heart 
of deliberations as we move toward these ideals.
    The last of ten objectives described in The Act reads: ``Freedom, 
independence, and the free exercise of individual initiative in 
planning and managing their own lives, full participation in the 
planning and operation of community-based services and programs 
provided for their benefit, and protection against abuse, neglect and 
exploitation.'' Congress' direction could not be clearer.
    Thanks to the wisdom of the times, the action of Congress and the 
genius of the Older Americans Act itself, aging networks have evolved 
in the 50 states and U.S. territories, each with its own 
characteristics, dictated by the needs of the individual area's older 
citizens. Let me describe Ohio's aging network, which serves and 
represents more than two million seniors who comprise 17 percent of the 
state's total population of 11.4 million. We have 12 Area Agencies on 
Aging (AAA's), each serving a share of Ohio's 88 counties. AAAs are 
well-established, independent, non-profit, community-based agencies 
that plan and coordinate senior services and monitor service providers 
according to strict quality assurance standards and standards of fiscal 
accountability. Among the providers are the 400-plus senior centers, 
many operating as well-known focal points for seniors and families.
    Each AAA is governed by a community board and all AAAs are 
accountable to the Centers for Medicare and Medicaid, the 
Administration on Aging, and the state Medicaid agency through the Ohio 
Department of Aging, which provides fiscal monitoring, guidance and 
oversight. AAAs work with local providers for all transportation, 
wellness, nutrition and home care services funded by the Older 
Americans Act, as well as state-funded community-based support services 
and two Medicaid waiver programs that provide in-home care services for 
more than 24,000 seniors who could otherwise reside in nursing homes.
    It amazes me what has arisen as a result of this single act of good 
government. A burgeoning network of services has been built upon the 
foundation of the Older Americans Act, funded by state, federal and 
local dollars, and augmented by charitable contributions and those of 
individuals and families served. For every dollar appropriated by The 
Act, another ten are added though other means. In Ohio last year, Older 
Americans Act funding totaled $54 million. What is astounding is the 
additional $330 million in state and federal funds devoted to senior 
services and another $90 million generated by 59 of Ohio's 88 counties 
that have local senior service levies and the $7.5 million in consumer 
contributions. Few investments have such a bountiful return.
    It is true that fortunes among the elderly in America have changed. 
However, for many, this is a distinction without a difference. While 
the statistics say just over eight percent of Ohioans age 60 and older 
today live in poverty, the high cost of healthcare, particularly 
prescription drugs and long-term care, impacts great numbers of 
seniors. While not counted among the poor, some struggle with the high 
cost of staying alive--sometimes faced with choosing between healthcare 
and meals.
    Ultimately, many reach a level of care or need that eliminates 
their personal savings and assets and leaves them with incomes that 
limit their choices to what is available through Medicaid. And in Ohio, 
due to an imbalance in funding that favors the most expensive 
alternative nursing homes, the default choice is, ironically, the least 
attractive to the individual and the most expensive to society. Even 
though poverty among the country's elderly has decreased, the enormity 
of long-term care costs and the consequences of longer and longer lives 
have made the challenge of maintaining independence far greater than 
ever imagined.
    What does this mean to your committee? It means that we must return 
to the guiding principles and objectives set forth in the Older 
Americans Act. We need to build upon tried and true, ongoing programs 
that help people remain as independent as possible as long as possible, 
and we need to develop others to be piloted, proven and replicated.
    I thank Congress for enacting the National Family Caregiver Support 
Program (NFCSP) in the 2000 reauthorization as an example of creative 
and sensible program expansion. It is the single most important 
addition to the Older Americans Act in years. Because 80 percent of 
long-term care is provided by family members at no cost to government, 
we must do all that is possible to support and strengthen the informal 
caregiver.
    Last year in Ohio, the NFCSP served 57,000 caregivers through 
information and referrals, in support groups and by a variety of 
educational resources and respite services. In a recent Ohio survey of 
the program's impact, 94.2 percent of participants responding said the 
OAA services helped make them better caregivers and 87.7 percent said 
it helped them care longer than they could otherwise. More than ninety 
percent rated services as good to excellent.
    In Ohio's aging network, caregiver funding has accomplished the 
primary objective of supporting caregivers, but it has had an important 
side benefit as well. Outreach efforts conducted on behalf of the 
program have raised awareness of all aging network services. This 
secondary benefit is critical because an informed and empowered 
consumer is essential in service delivery and in building the long-term 
care system of the future.
    That is why we need to reach out to consumers through initiatives 
like the Aging and Disability Resource Centers already proposed. I 
believe consumers themselves will help build this system through the 
choices they desire and will come to demand. We must listen to both the 
consumer and our customers, the taxpayers, to develop choices 
attractive to each. More and more, policymakers and practitioners are 
measuring positive outcomes for people and making information more 
available. We are doing that in partnership with the Administration on 
Aging (AOA) through the Performance Outcomes Measure Project, which 
measures important outcomes for selected OAA-funded programs--and we're 
getting high marks! We're targeting and serving those most in need, 
giving them services and supports they need and they are very satisfied 
with what they're receiving.
    Thanks to the efforts of Chairman Tiberi, Ohio developed the 
innovative Long-Term Care Consumer Guide, an Internet-based tool that 
has helped thousands of seniors and their families quickly and 
thoroughly examine nursing homes before selecting the one most 
suitable. Again, information is power, and informed, empowered 
consumers will be the best architects of system change. We must listen, 
and learn from them, and measuring the quality and volume of their 
voices is of utmost importance.
    I believe it is important to note here that our State Long-Term 
Care Ombudsman operates this program, and our budget request for the 
coming biennium includes assisted living facilities in the resource 
guide. I mention this because in Ohio, as in many other states, the 
ombudsman resides within the state unit on aging. Ohio's Long-Term Care 
Ombudsman is independent of the Ohio Department of Aging, but I am 
certain she would make a strong case here that the home care ombudsman 
under discussion in your committee should be incorporated within the 
existing network of long-term care ombudsman programs. The Ohio Long-
Term Care Ombudsman already advocates for quality of care and quality 
of life in all long-term care settings--including home care.
    Further, she would submit to this committee the importance of 
funding for legal services development under Title VII of the Older 
Americans Act. The State Long-Term Care Ombudsman Programs need 
adequate funding to respond to increasing emphasis on transformational 
change in facility-based long-term care. The ombudsman's emphasis on 
quality of life makes the program a key player in culture change.
    In Ohio today, we are fighting to balance the state's system of 
long-term care so that real choice is within reach of those who need 
it. In Ohio and in the nation, we must bring balance to our system to 
meet the growing demand of consumers who will reject the system as it 
is today, and to meet the needs of tomorrow's taxpayers who cannot 
afford an expensive system that so misses the mark of consumer need.
    The intent of the Older Americans Act was clearly to offer supports 
for people who, without them, would surely become more dependent upon 
government than necessary.
    Congress took a tremendous step forward creating the Medicare 
Modernization Act of 2004, and the burden of expensive prescription 
drugs will soon be lifted from seniors'' shoulders. The Older Americans 
Act, in combination with Social Security, Medicare, Medicaid and other 
social programs have provided a great safety net for seniors for the 
past 40 years. The Act was visionary, necessary and great public 
policy. It provided help to our most vulnerable citizens. It continues 
to evolve today as a foundation of funding and fundamental ideas that 
are built upon through programs funded by federal agencies, state and 
local governments, and private non-profit agencies and resources from 
individuals paying at least a part of the costs.
    Because of the linkages among federal programs that share 
beneficiaries and missions, it is imperative that the Centers for 
Medicare and Medicaid (CMS) and the Administration on Aging work 
together very closely. Cooperative ventures like Real Choice Systems 
Change Grants and others already in place will encourage the synergy 
vital to efficient and effective service to our aging population and 
disability communities as well.
    We must do everything possible to enable citizens to exercise 
choices that fit their needs and our government budgets, encouraging 
individual responsibility to pay as ability permits. We must do all of 
this to preserve the very programs created to serve those least able. 
If we do not build a sustainable system of long-term care with enough 
choices to meet--and not exceed--individual need, we run the very real 
risk of destroying the very programs we built to serve those most in 
need.
    I recommend that Congress empower the states, through the Older 
Americans Act Reauthorization now and in the future to expand funding 
for innovative programs that offer seniors greater opportunities for 
community-based supports. Further, I would like to see funding 
increased for education and awareness programs that lead older citizens 
and their families to the source of information that will help seniors 
maintain their most treasured rights to life, liberty and the pursuit 
of happiness.
    Thank you.
                                 ______
                                 
    Chairman Tiberi. That is unusual that someone finishes 
before the 5 minutes. Thank you, Director Lawrence. And thank 
you for the plug on the long-term care consumer guide. Thank 
you for your leadership in keeping it alive, because I know 
with budget cuts everything is--
    Ms. Lawrence. And we think it is going to stay in the 
budget, too.
    Chairman Tiberi. That is great. Thanks for your leadership.
    Mr. O'Donnell.

   STATEMENT OF MICHAEL O'DONNELL, EXECUTIVE DIRECTOR, EAST 
CENTRAL ILLINOIS AAA, NATIONAL ASSOCIATION OF AREA AGENCIES ON 
                     AGING, BLOOMINGTON, IL

    Mr. O'Donnell. Good morning, Mr. Chairman, Members of the 
Committee, thank you very much for this opportunity.
    Since Director Lawrence has set the pace, I will follow her 
lead.
    N4A--National Association of Area Agencies on Aging--
represents our Nation's 655 area Agencies on Aging, and is the 
champion in Washington for the interests of 240 Title VI Native 
American aging programs. Together we are serving over 8 million 
older persons and their caregivers each year. Nationwide AAAs 
and Title VI programs are working to build a society that 
values and supports Americans as they age.
    Well, in the interest of time, I will focus my oral remarks 
on n4a's principles for reauthorization.
    In 2006, the first wave of the boomers will turn 60 and be 
eligible for Older Americans Act services. Now is the time for 
individuals, families, communities and the Nation as a whole to 
plan and prepare for the coming demographic explosion. The 
reauthorization of the act provides an ideal opportunity for 
Congress to ensure that the Aging Network can meet the needs of 
older adults and their caregivers now and in the future.
    We are recommending the following: No. 1, to increase 
authorization levels to enhance home- and community-based 
services; No. 2, to prepare communities to meet demographic 
challenges; No. 3, strengthen the Aging Network as a single 
point of entry; No. 4, enhance the Aging Network's role in 
health promotion and disease prevention; and five, build on the 
capacity of the network to meet the challenges and 
opportunities of the future.
    To compensate for inflation and the rising costs of 
provider services, n4a urges Congress to raise the authorized 
funding levels of all the titles of the act by at least 25 
percent above 2005 appropriated levels, except for Title III-E, 
which should be reauthorized at 250 million. This level of 
increase is required to ensure that our Nation has the 
necessary resources to adequately serve the projected number of 
older adults. This is particularly true for the older ranks of 
those 85 and older who comprise the fastest-growing segment of 
the aging population, and who are most at risk and in the 
greatest need for aging supportive services.
    Like AAA's Title VI agencies across the Nation, the cost to 
my agency to provide Older Americans Act services has risen 
tremendously. Just to give you an example, a rural public 
transportation program that we interviewed prior to our 
hearing, we were asking them about their cost increases. They 
serve a five-rural-county area. The cost of a one-way trip 5 
years ago was $13.33 per one-way trip; today it is $26.42 due 
to a doubling of insurance costs and fuel costs.
    In your own area, Mr. Chairman, the central Ohio AAA has 
reported significant cost increases in the provision of Older 
Americans Act services over the past 5 years. From 2000 through 
2004, this area agency reported the cost of providing home-
delivered meals has increased by over 60 percent; the cost of 
transportation has grown by more than 24 percent; and the cost 
per ride by almost 65 percent, from $6.97 per ride to $11.50.
    Additional funding is needed to meet the needs of the 
population we currently serve and is essential to meet the 
needs of the Nation's baby boomers. Now is the time to include 
authorization levels in the act that will enable Congress to 
allocate the funding needed to provide the range of services 
that the Older Americans Act envisioned.
    Over the course of the next three decades, the aging of the 
boomers will have a direct and dramatic impact on the social, 
physical and fiscal fabric of our Nation's cities and counties. 
The aging of our Nation's population will not only impact 
traditional aging services, but also every aspect of local 
government programs, policies and services in the areas of 
health, human services, land use, housing, transportation, 
public safety, workforce development, economic development, 
recreation, education, life-long learning, volunteerism and 
civic engagement.
    Despite the demographic forecast, few communities have 
begun to prepare for an aging population. Given their existing 
mandated role to create multiyear, comprehensive, community-
based services for older adults, AAA and Title VI agencies are 
uniquely positioned to serve as a liaison to local agencies to 
help them prepare to address the challenges and opportunities 
posed by the aging population. For this reason, n4a is urging 
Congress to add a new title to the Older Americans Act to 
support area agencies and Title VI agencies in assisting county 
and city governments to proactively prepare their communities 
for the aging of the boomers.
    The clock is ticking. Now is the time to help our Nation's 
communities prepare to address the needs of their growing older 
population. By doing so, we can create livable communities for 
all ages; not only good places to grow up, but also good places 
to grow old. Thank you.
    Chairman Tiberi. Thank you.
    [The prepared statement of Mr. O'Donnell follows:]

   Statement of Michael O Donnell, Executive Director, East Central 
     Illinois AAA, National Association of Area Agencies on Aging, 
                            Bloomington, IL

    Mr. Chairman and distinguished members of the Subcommittee, my name 
is Michael O Donnell. I am the Executive Director of the East Central 
Illinois Area Agency on Aging, and I also serve as the Second Vice 
President of the National Association of Area Agencies on Aging (n4a). 
n4a represents our nation's 655 Area Agencies on Aging (AAAs) and is 
the champion in Washington, DC, for the interests of 240 Title VI 
Native American aging programs. Nationwide, Area Agencies on Aging and 
Title VI programs are working to build a society that values and 
supports Americans as they age.
    I want to thank the Subcommittee for inviting me here today to 
testify on the upcoming reauthorization of the Older Americans Act.

The Older Americans Act: Its Strengths and Challenges
    Since it was enacted in 1965, the OAA has served as the legislative 
vehicle and the guiding force behind efforts to help Americans age with 
maximum dignity and independence in their homes and communities for as 
long as possible. The OAA established the national Aging Network which 
has effectively and efficiently served as the infrastructure for aging 
service delivery at the federal, state and local level for the past 40 
years.

The Strength of the Aging Network
    The infrastructure established by the Older Americans Act created a 
strong, effective and efficient system to provide access to a continuum 
of supportive services to older adults and their caregivers in every 
community in the nation. Last year alone, Older Americans Act services 
touched and improved the lives of over eight million Americans.
    At the local level, AAAs and Title VI Native American aging 
programs provide the supportive structure for planning, service 
coordination, oversight, and advocacy to address the needs of our 
nation's older adults and their caregivers. AAAs help older adults and 
caregivers access home and community-based services, including 
congregate and home-delivered meals, in-home services for frail older 
adults such as personal care and chore services, elder abuse prevention 
and protections, nursing home ombudsman, senior center activities and 
programs, adult day care, transportation, consumer information, 
education and counseling and senior employment.
    Many AAAs manage a variety of funding sources in addition to the 
OAA, including Medicaid waivers for home and community-based care, 
social service block grants, transportation funds, and state-funded in-
home service programs. AAAs and Title VI agencies have demonstrated an 
extraordinary record of achievement in leveraging these funds with 
millions of non-federal and state dollars from local governments, 
foundations, the private sector, and other contributions to help 
millions of older people avoid costly nursing home placement and remain 
independent in the community. The OAA is a prime example of a federal, 
state, and local partnership that works.
    In 2000, a new and important program, the National Family Caregiver 
Support Program (NFCSP) was added to the Older American Act which 
strengthened the Aging Network's ability to assist the caregivers of 
older adults. The creation of this program by Congress came none too 
soon. A 2004 survey conducted by AARP and the National Alliance for 
Caregiving found that 34 million adults provide unpaid help to 
individuals 50 and older. NFCSP provides funds to help communities 
assist caregivers who often struggle to care for their older loved ones 
who are ill or who have disabilities.
    The NFCSP has enabled local communities to connect families with 
information on caregiver resources and local services, provide 
counseling, training and peer support for caregivers, and provide 
services needed by older adults and their families, such as respite 
care, in-home services and adult day care. Through this program, the 
Aging Network has also responded to the needs of the millions of 
grandparents in this nation who are caregivers of grandchildren and 
other older individuals who are kinship caregivers of children under 
the age of eighteen.
    The NFCSP has truly made a difference in the lives of our nation's 
unsung heroes--its caregivers. My own agency, the East Central Illinois 
AAA, has designated and funded nine Family Caregiver Resource Centers 
serving a 16-county area. Last year, The Resource Centers Family 
Caregiver Advisors served over 2,500 caregivers of older adults and 
grandparents raising grandchildren.

Challenges Facing the Aging Network
    The major challenges facing the Aging Network revolve around the 
resource capacity to meet the needs of current and future older 
Americans. Because of the Network's position at the federal, state and 
local level, it is currently seen as and will be looked to even more so 
in the future as the front line resource to meet the growing needs and 
demands of an aging population. Although the Network is well positioned 
to address these needs, with the rising cost of service delivery and 
the rapid increase in the numbers of older Americans, in the absence of 
adequate resources, the Network will not be able to meet these needs in 
the future.

How the Older Americans Act has Evolved to Meet Changing Needs
    Over the years, the OAA has evolved to meet changing needs and 
expectations and now is the time for the Act to evolve yet again. Since 
its inception, the OAA has expanded its legislative scope from a focus 
solely on addressing and supporting the needs of older adults 
themselves, to an expansion of the Act's mission with the 2000 
Amendments to address and support the needs of the caregivers of older 
adults, and now with the current reauthorization of the Act, we are 
advocating that we need to expand its mission yet again to further 
support the role of the Aging Network as the focal point for aging 
services and to assist our nation's communities prepare to meet the 
challenges and opportunities of the coming ``age wave''.
n4a's Principles for the 2005 OAA Reauthorization
    In 2006, the first wave of the baby boom generation will turn 60 
and be eligible for OAA services. Now is the time for individuals, 
families, communities and the nation as a whole to plan and prepare for 
the coming demographic explosion.
    The reauthorization of the Older Americans Act provides an ideal 
opportunity for Congress to ensure that the Aging Network can meet the 
needs of the current and future populations of older adults and their 
caregivers. In order to do so, n4a believes the reauthorization should 
embrace the following recommendations:
    1)  Increase Authorization Levels to Enhance Home and Community-
Based Services;
    2)  Prepare Communities to Meet Demographic Challenges;
    3)  Strengthen the Aging Network as a Single Point of Entry;
    4)  Enhance the Aging Network's Role in Health Promotion and 
Disease Prevention; and,
    5)  Build on the Capacity of the Aging Network to Meet the 
Challenges and Opportunities of the Future.

Increase Authorization Levels to Enhance Home and Community-Based 
        Services
    To compensate for inflation and the rising costs of providing 
services, n4a urges Congress to raise the authorized funding levels of 
all the titles of the OAA by at least 25 percent above the fiscal year 
2005 appropriated funding level except for Title III-E which should be 
authorized at $250 million. This level of increase may seem high, but 
such an increase is required to ensure that this nation has the 
necessary resources to adequately serve the projected growth in the 
numbers of older adults. This is particularly true for the growing 
ranks of the 85 and older population who comprise the fastest growing 
segment of the aging population and who are typically frail and in the 
greatest need for aging supportive services.
    Like AAAs and Title VI agencies across the nation, the cost in my 
agency to provide Older Americans Act services has risen tremendously. 
A cost comparison over the last five years for my agency's assisted 
transportation program SHOW BUS (Seniors and Handicapped on Wheels Bus 
to Urban Services,) funded through a grant from OAA Title III-B funds, 
indicate that the cost of providing this service has doubled due 
primarily to escalating insurance and gas prices. In fiscal year 2000, 
the cost of a one-way trip was $13.33; today the cost of that same trip 
has nearly doubled in cost to $26.42. During this period, the cost to 
insure the program's fleet of vehicles increased from $36,789 to 
$78,672, and while the cost of gas increased from 14 cents to 27 .
    In your own area, Mr. Chairman, the Central Ohio AAA has reported 
significant cost increases in the provision of OAA services over the 
five years. From fiscal year 2000 to fiscal year 2004, this AAA 
reported that the cost of providing home delivered meals has increased 
by over 60% from $616,032 to $997,168. The cost of transportation 
services has grown more than 24% from $270,698 to $336,599, and the 
cost per ride by almost 65% from $6.97 to $11.50.
    Additional funding is needed to meet the needs of the population we 
currently serve and is essential to meet the needs of the nation's 
aging baby boomers. Now is the time to include authorization levels in 
the Act that will enable Congress to allocate the funding that is 
needed to provide the range of aging services that the Older American 
Act envisioned to promote a good quality of life for all of our older 
citizens.

Community Preparedness to Meet Demographic Challenges
    Over the course of the next three decades, the aging of the baby 
boomers will have a direct and dramatic impact on the social, physical 
and fiscal fabric of our nation's cities and counties. The aging of our 
nation's population will not only impact traditional aging services, it 
will also affect every aspect of local government programs, policies 
and services in the areas of health, human services, land use, housing, 
transportation, public safety, workforce development, economic 
development, recreation, education/lifelong learning, and volunteerism/
civic engagement.
    Despite the demographic forecast, few communities have begun to 
prepare for an aging population. Given their existing mandated role 
under the OAA to create multi-year plans for the development of 
comprehensive, community-based services for older adults, AAAs and 
Title VI Native American aging programs are uniquely positioned to 
serve as a liaison to local agencies to help them prepare to address 
the challenges and opportunities posed by aging population.
    For this reason, n4a is urging Congress to add a new title to the 
OAA to support AAAs and Title VI agencies in assisting county and city 
governments proactively prepare their communities for the aging of the 
baby boomers. The clock is ticking. Now is the time to help our 
nation's communities prepare to address the needs of their growing 
older population. By doing so, we can make America's communities 
livable communities for all ages- not only good places to grow up but 
also good places to grow old.

Strengthen the Aging Network as a Single Point of Entry
    n4a also urges Congress to add a new title to the OAA to 
permanently establish authorized Aging and Disability Resource Center 
(ADRCs) within every service area in the nation, with AAAs given the 
right of first refusal to be designated as the ADRC. The ADRCs program, 
part of the President's New Freedom Initiative and spearheaded through 
the U.S. Administration on Aging and Centers for Medicare and Medicaid 
Services, has helped states integrate their long-term support programs 
for the elderly and people with disabilities into a single coordinated 
system.
    Since 2003, 24 States have received ADRC grants on a competitive 
basis to assist them in developing and implementing coordinated access 
to information and counseling services for consumers on a range of long 
term care issues and assistance programs. The Aging Network has played 
an integral role in these efforts with approximately 90% of the grants 
being administered by State Units on Aging and piloted by AAAs. Given 
the success of these efforts, now is the time to take the ADRC 
initiative nationwide by including it as a core element of the Older 
Americans Act.

Enhance the Aging Network's Role in Health Promotion and Disease 
        Prevention
    To enhance the ability of AAAs to carry out health promotion and 
disease prevention efforts, n4a urges Congress to authorize $50 million 
for the Title III-D program and proposes that $10 million of the 
appropriation be set aside to pilot, through the AAAs, a community-
based collaborative between local aging and healthcare providers to 
promote disease prevention services.
    Title III-D of the OAA provides funding for disease prevention and 
health promotion services. This program has become increasingly 
valuable as recent evidence-based research continues to prove that 
health promotion and disease prevention not only contribute 
significantly to an individual's quality of life, but also are a cost 
effective means of delaying and, in some cases, eliminating the onset 
of chronic diseases and their related care costs. Now is the time to 
invest in health promotion and disease prevention for the growing ranks 
of older adults. These investments will not only reap huge benefits in 
terms of improving the health and well being of this growing population 
but will also reap huge health care savings for individuals and the 
government as costs for acute or chronic diseases for this population 
will are reduced over time.

Build on the Capacity of the Aging Network to Meet the Challenges and 
        Opportunities of the Future
    Over the next 10 years the Aging Network is forecasted to lose over 
a third of its local leaders as a result of retirement, attrition and 
other factors. Many of these leaders have been involved with the OAA 
since its inception. With their departure, the Network will lose a 
wealth of institutional knowledge and experience in providing aging 
services. Given the increased demographic demands on aging services in 
the next 10 to 20 years, it is crucial that a pool of highly trained, 
effective leaders be trained to continue the critical work of AAAs and 
the local aging network.
    For this reason, n4a urges Congress to support the development of a 
national education and leadership training program for AAA and Title VI 
Directors and senior staff under Title IV that would reinforce and 
broaden the capacity of Aging Network leaders. Now is the time to 
invest in the people who will be the leaders and champions to serve the 
largest cohort of older Americans in our nation's history.
    Thank you, Mr. Chairman, for the opportunity to speak today about 
n4a's recommendations for the reauthorization of the OAA. Now is the 
time to seize the opportunity that this reauthorization provides to 
make new and bold changes to the Older Americans Ac. Doing so will 
ensure that our nation is ready to address the challenges and 
opportunities posed by our rapidly rising numbers of aging baby 
boomers.
    The aging of the baby boomers is upon us. The time to act is now.
                                 ______
                                 
    Chairman Tiberi. Ms. Metzger.

  STATEMENT OF JANE METZGER, PRESIDENT ELECT, MEALS ON WHEELS 
               ASSOCIATION OF AMERICA, TOPEKA, KS

    Ms. Metzger. Mr. Chairman and Members of the Subcommittee, 
I am Jane Metzger, president-elect of the Meals on Wheels 
Association of America, or MOWAA, as we call it. MOWAA is the 
oldest and largest national organization representing both 
home-delivered and congregate senior meal programs. I am also a 
local meal provider.
    Since 1990, I have been the executive director of Meals on 
Wheels in Shawnee and Jefferson Counties in Topeka, Kansas. 
Last year my program served 230,000 meals, and our oldest 
client was 103.
    The reauthorization of the Older Americans Act in 2005 is a 
priority for MOWAA. We are honored to have the opportunity to 
suggest modifications that we believe will improve and 
strengthen the act that remains the foundation on which a 
strong and vital system of home- and community-based services 
has been built and continues to evolve.
    We believe that of the services funded through the act, 
senior nutrition programs are the most important and 
universally recognized. In fact, the OAA nutrition program is 
the largest program administered by the Administration on 
Aging, and last year funding for senior nutrition programs 
accounted for approximately 46 percent of the total agency 
budget. That kind of Federal commitment is good news for the 
frail elderly who rely on senior meal programs. But the funds 
that Congress provides are seriously inadequate to meet 
present, much less future, needs. You may be thinking that is a 
matter for the Appropriations Committee, but the issue I am 
raising is an authorization issue.
    Nutrition programs were originally conceived to be public/
private partnerships, with the Federal share providing seed 
money to leverage other sources. Such partnerships have 
strengthened and enhanced our programs. We want partnerships to 
continue, and, in fact, we seek to expand them. For example, my 
program receives funds through the Older Americans Act, Shawnee 
County, Jefferson County, city of Topeka, United Way of Greater 
Topeka, client contributions, and through aggressive 
fundraising.
    Only 60 percent of our home-delivered clients are funded 
under the Older Americans Act; the other 40 percent are fee-
for-service clients for whom we utilize a sliding scale. But 
because the Older Americans Act prohibits us from instituting 
cost-sharing, we must set up a separate and distinct program 
for those individuals. I am forced to operate two programs side 
by side in the same community, using the same caterer, 
delivering the same meals. We have made such an arrangement 
work in Topeka, but it is illogical and inefficient. Not all my 
colleagues across the country have the resources to establish 
two programs to meet the same needs.
    In order to expand services and ensure that more seniors 
receive the meals they need, MOWAA believes that all senior 
meal programs should be given the option of incorporating cost 
sharing for those clients who have the ability to pay. The act 
needs to be amended to allow for this. I stress the word 
``allow'' because we are suggesting language that is 
permissive; programs themselves would make the decision whether 
or not to implement it.
    The cost-sharing provision is only one of the legislative 
changes that MOWAA is seeking. Earlier I mentioned that senior 
nutrition funding made up 46 percent of the AOA budget. I 
should have said that as appropriated it made up 46 percent of 
the budget. The act allows States to transfer up to 30 percent 
of the total line item amount between Title III-B, supportive 
services, and Title III-C, nutrition services.
    MOWAA has supported allowing flexibility and will continue 
to do so, but with a strong caveat. Transfer should not be made 
between Titles III-B and III-C so long as there remain unmet 
needs in the category for which the allocations were explicitly 
made. That is, there should be no transfer between Title III-C 
to Title III-B for non-nutrition-related supportive services 
while seniors remain on waiting lists for nutrition services.
    We also request that the act be amended to ensure that the 
general and administrative dollars must be taken from the line 
item or category in which the services are performed. In other 
words, Title III-C dollars may not be used to pay the 
administrative costs associated with managing Title III-B 
services.
    In closing, Mr. Chairman, I thank you again for bringing 
the important issue of reauthorization of the Older Americans 
Act to the attention of your colleagues in this Older Americans 
Month. MOWAA looks forward to working with you and your staff 
to craft a bill that not only meets the needs of today's 
seniors, but also furnishes service providers the tools they 
need to improve and expand the home- and community-based system 
to build capacity for tomorrow's seniors.
    I would be delighted to answer any questions that you might 
have.
    Chairman Tiberi. Thank you.
    [The prepared statement of Ms. Metzger follows:]

Statement of Jane Metzger, President Elect, Meals On Wheels Association 
                         of America, Topeka, KS

    Mr. Chairman and Members of the Subcommittee on Select Education, I 
am Jane Metzger, President-Elect of the Meals On Wheels Association of 
America, or MOWAA as we call our organization. MOWAA is the oldest and 
largest national organization representing senior meal programs--both 
home-delivered and congregate. I am pleased to represent MOWAA, on 
whose behalf I am testifying today. But I also speak from the 
perspective nutritious meals they need and that the Older Americans Act 
helps to ensure that they receive. Since 1990 I have been the Executive 
Director of Meals On Wheels of Shawnee and Jefferson Counties, in 
Topeka, Kansas. Ours is both an urban and rural program, and in 2004, 
we served 139,471 home-delivered meals and 99,680 congregate meals. Our 
oldest client is 103. While she is not our typical recipient, it is no 
longer unusual for meal programs across the country to have 
centenarians for clients. And that fact points vividly to a demographic 
trend that must be taken into consideration: the client population that 
we serve is growing and changing. Not only will the first Baby Boomers 
be eligible to receive Older Americans Act services next year (2006), 
but the so-called old-old--those individuals aged 85 and older--
continue to comprise a greater and greater percentage of the elderly 
population in America. We must prepare for significant growth at both 
ends of the senior spectrum. We must prepare for the diversity of 
needs, wants, expectations, and the like that accompany that diversity.
    That being the case, the work this Subcommittee is doing today is 
of critical importance, and MOWAA commends you for holding this 
hearing. The reauthorization of the Older Americans Act (OAA) in 2005 
is a priority for MOWAA. We are honored to be among the first to 
declare our support for reauthorization and to suggest modifications 
that we believe will improve and strengthen the Act that remains the 
foundation on which a strong and vital system of home and community-
based services has been built and continues to evolve.
    The basic principles on which the Act was established and which are 
clearly articulated in its ``Declaration of Objectives for Older 
Americans'' in the Act itself remain as relevant today as they were 40 
years ago. While the objectives and principles are timeless, the means 
by which we address and implement them is and must be dynamic. A case 
in point is the particular service my Association represents. Although 
the Act is celebrating its 40th birthday, Older Americans Act senior 
nutrition programs are only 33 years old. Not until the Act was 
reauthorized in 1972 were senior nutrition programs made a permanent 
part of the Act. Today we believe that the nutrition programs are the 
most universally recognized service under the Act; and, it should come 
as a surprise to no one, we would also suggest that they are the most 
critical. No one can survive without adequate nutrition and the direct 
link between nutrition and health continues to be emphasized by the 
scientific and health communities. Congress and the Administration 
acknowledge the importance of our programs. In fact, the OAA nutrition 
program is the largest program administered by the Administration on 
Aging (AoA) and last year funding for senior nutrition programs (Title 
III-C1 and III-C2 and the Nutrition Services Incentive Program) 
accounted for approximately 46 percent of the total agency budget.
    That kind of federal commitment, of course, is good news for the 
frail, elderly citizens in every community of this country who rely on 
senior meal programs to provide them nutrition, sometimes the only food 
they get during the day. But the fact is, Mr. Chairman, that the funds 
that Congress provides are seriously inadequate to meet present, much 
less future needs. You may be thinking that is a matter for the 
Appropriations Committee and not authorizers to take up. While we would 
certainly appreciate an increase in funding levels, we are realists; we 
know that federal funds cannot--and we would even argue should not--
ever be sufficient to meet the need. The issue that I am raising is an 
``authorization'' issue. Our programs were originally conceived to be 
public-private partnerships, with the federal share providing seed 
money to leverage other sources. They remain that way today, and such 
partnerships have actually strengthened and enhanced our programs. We 
want partnerships to continue; and, in fact, we seek to expand them.
    If I may digress just a moment I'd like to describe how the program 
I run operates and from where it gets its funding. We receive funds 
through the Older Americans Act, Shawnee County, Jefferson County, City 
of Topeka, United Way of Greater Topeka, client contributions and 
through aggressive agency fundraising. Only 60 percent of our home-
delivered clients are funded under the Older Americans Act. Only 60 
percent. The other 40 percent are fee-for- service clients, for whom we 
utilize a sliding scale, supplemented by our United Way funding. But 
because the Older Americans Act prohibits us from instituting cost-
sharing, as it is called when it is allowed for other services under 
that Act, we must set up a separate and distinct program for those 
individuals. In other words, I am forced to operate two programs side-
by-side in the same community, using the same caterer, delivering the 
same meals. We have made such an arrangement work in Topeka, but it is 
illogical and inefficient. And not all my colleagues across the country 
have the resources to establish two programs to meet the same needs. It 
is MOWAA's position that senior meal programs, all senior meal 
programs, should be given the option of incorporating cost-sharing or 
fee-for-service for those clients who have the ability to pay for the 
purpose of expanding services and ensuring that more, not fewer, 
seniors receive the meals they need. The Act needs to be amended to 
allow for this.
    Let me be very clear about this proposal. MOWAA is not suggesting 
that meal programs, or any service under the Act, be means-tested. In 
fact, we oppose that absolutely. But we do not regard the current cost-
sharing arrangement for other OAA services, such as homemaker services, 
as means-testing. Neither do we propose to make cost-sharing mandatory 
for any program. We are simply seeking a legislative fix that would 
grant flexibility for programs, who know their own clients, to make 
decisions about whether, how and in what circumstances to institute 
cost-sharing. It has been my program's experience that many of the 
elderly or their family members desire to become partners with us in 
this way. This is true of today's 60 plus population, and MOWAA 
believes this will increasingly become the case as the Baby Boomers 
seek services.
    Your predecessor Committee in the 104th Congress proposed a similar 
change in the Act, and MOWAA supported the change at the time. The 
Committee Report (104-539) described the Committee proposal in this 
way: ``For the first time since enactment of the Older Americans Act 
the Committee bill will permit States and local providers to require 
cost-sharing for those services they feel are most appropriate. The 
bill does not require cost-sharing for any service and it prohibits 
providers for denying services to participants based on their inability 
to pay. It is not the intent of the Committee, however, that States 
taking this option add additional paperwork burdens on local providers 
and require extensive applications.'' The report continued, ``By 
allowing States and local providers to require cost sharing for 
specific services, the Committee expects that additional participants 
will be able to benefit from services under this Act.''
    As the Subcommittee is aware, that particular reauthorization bill 
did not pass. But the provision discussed above represented right and 
innovative thinking. MOWAA continues to agree with it in principal and 
we believe the time for allowing programs such flexibility--for the 
express purpose articulated in that report language--has come. We would 
be delighted to work together with the Committee to develop a specific 
provision that explicitly protects individuals from denial of services 
while at the same time provides programs an additional revenue source. 
I can speak from experience and tell you that results will not be 
denial of services but expansion of services and provision of meals to 
seniors who otherwise would have to be placed on waiting lists.
    The cost-sharing provision is one of two specific legislative 
changes that MOWAA is seeking. The other has not, to our knowledge, 
been proposed to or considered by Congress in the past. It is also 
designed to ensure that frail seniors receive the life-supporting, 
health-promoting nutrition services they need and deserve. Earlier I 
mentioned that OAA senior nutrition funding made up 46 percent of AoA's 
budget. I should have said that, as appropriated, funding for senior 
nutrition programs made up 46 percent of the budget. As you are aware, 
the Act allows States to transfer up to 30 percent of the total line 
item amount between Titles III-B, Supportive Services and Title III-C, 
Nutrition Services. Transfers can also be made from III-C1 to III-C2 
and vice versa. MOWAA has supported allowing flexibility to States to 
shift some funds to meet specific State and local needs. We continue to 
support flexibility but with a strong caveat. Transfers should not be 
made between Titles III-B and III-C so long as there remain unmet needs 
in the category for which the allocations were explicitly made. In 
other words, there should be no transfer from Title III-C to Title III-
B for non-nutrition related Supportive Services while seniors remain on 
waiting lists for Nutrition Services. Consistent with this proposal to 
establish line item integrity, we also request that the Act be amended 
to ensure that general and administrative dollars must be taken from 
the line item or category in which the services are performed. In other 
words, Title III-C dollars may not be used to pay the administrative 
cost associated with managing Title III-B services.
    In closing I would like to make the Subcommittee aware of a 
federally-funded grant project entitled ``Community Connections: Moving 
Seniors Toward Wellness,'' which is a cooperative agreement between 
MOWAA and the Administration on Aging. The project focuses on a cohort 
of the eligible senior population who in many communities go largely 
unserved. These are individuals being discharged from hospitals after 
institutionalization for primarily short-term acute conditions. Because 
in most communities the social services and health care systems work 
independently, there is no existing mechanism for communication and 
integration of services between the two. Patients being discharged from 
hospitals are not routinely ``connected'' to senior meal programs, so 
many fail to receive the needed services. Under the grant demonstration 
projects in six states are working to transform the current systems 
into an integrated continuum of care, where patients who qualify for 
and need services will be referred to meal programs immediately on 
discharge. More projects in more states will be added during the grant 
period, as well. Although we have not yet completed the collection of 
data, we firmly believe that our project ultimately will demonstrate 
that such arrangements improve the nutritional and health status of 
elderly patients and may eliminate or postpone rehospitalizations. 
That, of course, is good for people. We also believe it will make good 
fiscal sense, because the reduction of hospitalizations or postponement 
of institutionalizations should produce savings on the Medicare and 
Medicaid sides of the federal ledger.
    One consequence that we can expect from a transformed care system 
that makes these appropriate connections between hospitals and senior 
meal programs is an increase in the number of clients seeking our 
services. This, of course, means that meal programs will need 
additional financial resources to meet these needs. We can expect that 
many of these clients will themselves be short-term participants of our 
program; and they may well have the financial resources to pay for the 
nutrition services that they critically need in order to return to 
health and their level of prehospitalization life within the community.
    In closing, Mr. Chairman, I thank you again for bringing the 
important issue of Reauthorization of the Older Americans Act to the 
attention of your colleagues in this, Older American Month. MOWAA looks 
forward to working with you and your staff to craft a bill that not 
only meets the needs of today's seniors but which furnishes service 
providers the tools they need to improve and expand the home and 
community-based system to build capacity for tomorrow's seniors. I 
would be delighted to answer any questions that you or other members of 
the Subcommittee may have.

Meals on Wheels Association of America Statement of Principles on the 
        Reauthorization of the Older Americans Act:
    Adopted by the MOWAA Board of Directors--September 2004

MOWAA continues its strong support of the ``Declaration of Objectives 
for Older Americans'' that have been a part of the Act historically.

Any amendments to the Act should preserve and strengthen those 
principles on which the Act was developed.

While preserving these longstanding principles the Act should recognize 
that changes have occurred in both (a) the characteristics and 
preferences of the populations served and those eligible to receive 
services and (b) in the systems/programs that serve them. The Act 
should be updated to reflect these changes and to allow for capacity-
building.

A strong federal commitment to the Act must be maintained through 
increased financial support to meet growing needs.

The Act should recognize that programs (not just SUAs and AAAs) need 
flexibility to address the unique needs of their client populations and 
to leverage the additional resources necessary to serve individuals 
within their communities.

Given limited public funds to support SNP programs, SNPs should be 
permitted the option of utilizing cost-sharing as a means of raising 
funds to provide services. Decisions concerning the amount and nature 
of cost-sharing should be made at the program level.

While MOWAA has and does support the flexibility afforded by allowing 
transfers within Title III (among B, C1 and C2), MOWAA believes that 
the reauthorized Act should establish ``line item integrity'' which 
would include the following provisions:

(1) General and Administrative dollars must be taken from the line 
item/category in which the services are performed (i.e., Title III C 
dollars cannot be used to pay IIIB admin costs)

(2) Transfer from one line to another cannot take place while an unmet 
need still exists in the category for which dollars are designated 
(i.e., not transfer from IIIC to IIIB while there are still waiting 
lists for services, etc.) without at the very least some verification 
why the transfer is necessary and justified.
                                 ______
                                 
    Chairman Tiberi. Mr. Leos.

    STATEMENT OF JESSE LEOS, NATIONAL DIRECTOR OF THE SCSEP 
        PROGRAM, SER-JOBS FOR PROGRESS, INC., IRVING, TX

    Mr. Leos. Good morning. It is truly an honor to be asked to 
testify before this distinguished panel this morning.
    Again, my name is Jesse Leos. I am the National SCSEP 
director for SER-Jobs For Progress National, Inc. SER is one of 
13 national SCSEP grantees operating under the direction of the 
Department of Labor.
    As is widely known, the American workforce is in the midst 
of a great transformation. This transformation will impact our 
Nation's ability to compete in the global economy. This 
transformation is twofold. At one end of the spectrum is our 
Nation's youth, and at the other is our Nation's older 
population. Indeed, the American workforce is getting younger 
and older at the same time; that is to say our population 
growth is impacted by two forces, one, a solely largely 
immigrant young population, and second, an older segment that 
is living longer, more productive lives.
    While American youth have unique challenges entering the 
workforce, I am here this morning to share SER's experiences in 
working with the older American workforce.
    Our experience in working with older Americans is that more 
and more older Americans want to work, need to work and can 
work. The SCSEP program offers thousands of older Americans the 
opportunity to continue to be productive and share a wealth of 
knowledge and experiences with younger workers. SER presently 
serves more than 3,000 older Americans, and we are posed to 
double that number.
    Americans are living longer, healthier lives. 
Unfortunately, many of our older Americans are in older 
economic situations, and as such need to continue to work. The 
SCSEP program offers these individuals the ability to acquire 
valuable skills to obtain employment.
    American employers are already utilizing the need to hire 
older workers. SER is in partnership with the Home Depot and 
CVS Pharmacy to train and place SCSEP participants into their 
stores. These participants gain firsthand experience of these 
employers' business functions prior to being hired for both 
part-time and full-time employment. SER partnerships with the 
Home Depot and CVS Pharmacy are just two examples of how the 
SCSEP prepares older workers to enter and to succeed in the 
workplace.
    Some valuable lessons learned from our endeavors are that 
more focused training needs to be directed toward the 
development of technological skills. The great majority of 
SCSEP participants are not computer literate, yet the great 
majority of our country's employers utilize computer technology 
in the workplace. I believe that more time and funding needs to 
be funded or focused to computer training prior to placement in 
the community service component.
    Another area which needs to be considered is to have built-
in support services into the program, especially transportation 
assistance. This is vital to both urban and rural America. This 
would not only eliminate the barrier of difficulty getting back 
and forth to the training site, but would also assist in the 
recruitment of program participants.
    Still another enhancement to solidify the relationship 
between the SCSEP program and the one-stop system is--I am 
sorry. Still another enhancement is to solidify the 
relationship between the SCSEP program and the one-stop system. 
SER is currently actively working on placing our staff into the 
one-stops in order to operate the SCSEP program. By doing this, 
SCSEP participants can gain greater access to the wide array of 
services which the one-stop system offers.
    And finally, more incentives should be afforded to American 
employers to hire older Americans. The bottom line is critical 
to the success of any employer; consequently, the less cost of 
the employer to train the employee, the more receptive the 
employer will be to be hiring the SCSEP participant.
    I urge this distinguished panel to continue to assist our 
older Americans in preparing themselves to gain valuable 
workforce skills to stay competitive in the workplace.
    On behalf of SER and the thousands of SCSEP participants, 
thank you very much, Mr. Chairman, for your time and for the 
privilege of being asked to address you this morning.
    [The prepared statement of Mr. Leos follows:]

 Statement of Jesse Leos, National Director of the SCSEP Program, SER-
                  Jobs for Progress, Inc., Irving, TX

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to have the opportunity to testify before you today 
and represent SER-Jobs for Progress National, Inc. My name is Jesse 
Leos, and I am the National Director of the SCSEP program for SER 
National.
    SER is a national non-profit organization with headquarters in 
Irving, Texas. We were founded by LULAC, which is the League of United 
Latin American Citizens, and the American GI Forum. We are governed by 
a volunteer Board of Directors, made up of a majority of 
representatives from Fortune 500 companies.
    The SER Network consists of 42 affiliates operating in more than 
200 offices in 19 states, Puerto Rico and the District of Columbia. 
Since its founding in 1965, SER has served millions of mostly Hispanic 
low-income residents with a full spectrum of services, in the areas of 
education, employment, and housing. Our foremost mission has been to 
prepare a stronger, skilled, and knowledgeable workforce.
    For the last four decades, SER has endeavored to improve the lives 
of Hispanics and all underserved populations to achieve economic self-
sufficiency. SER operates very diverse programs throughout the country 
from charter schools in Mission, Edinburg and McAllen, Texas, to Head 
Start programs in 41 centers in and around San Juan, Puerto Rico. In 
Cleveland, Ohio we provide medical training in hospitals and have a new 
innovative partnership with Home Depot that will be expanded to serve 
the entire state of Ohio. In the District of Columbia the award-winning 
Bell Multicultural High School in the District of Columbia is building 
a new $70 million facility across the street from their school.
    Our expanding SER program in Las Vegas, Nevada just installed a 
SBC/LULAC computer lab worth $50,000 and will help serve older adults 
with literacy programs. In Chicago, SER National has a growing 
partnership with CVS pharmacy. Numerous seniors have just starting a 
second career working at a new CVS store on North Michigan Avenue in 
downtown Chicago.
    We are also very proud of SERCO, our for-profit side of our 
business. SERCO combines the best of community-based approaches with 
the efficiency of the best business principles and offers our SER 
partners an opportunity to manage and operate one-stops. SER Metro-
Detroit Jobs for Progress is the flagship program among SER partners, 
operating the largest one-stop career center in America--the 562,000 
square foot Samaritan Center, just east of downtown Detroit. It is a 
model for replication and is truly seamless in meeting the training and 
employment needs for citizens of all ages.
    SERCO operates 66 One-Stop Career Centers across the country. In 
Texas alone, we serve 648,000 customers in our one stop centers and 
throughout the country. Added to the total number programs our partners 
operate nation-wide, SER serves well over a million people.
    I am here today to talk about the Senior Community Service 
Employment Program. SER is proud to be one of 13 national SCSEP 
grantees. SER is currently in its second year of providing services to 
the senior population. We administer our program from our national 
headquarters in Texas and we work with sub grantees in 16 states from 
the East to the West coast. The majority of our 26 sub grantees are our 
SER affiliates who have operated programs for disadvantaged individuals 
for the last four decades.
    We all know that the country is experiencing unprecedented changes 
in demographics, including growth in the number of seniors in the 
population. With 76 million baby boomers retiring this decade and the 
next, only 45 million Generation X ers are in the pipeline to take 
their place. The U.S. Department of Labor estimates that as early as 
2006, there will be 15.1 million jobs available and merely 14 million 
people in the workforce pool.
    Employers and seniors alike are now compelled to view 
``retirement'' in a new way; many seniors will work well into their 
seventies and eighties for both economic and social reasons. These 
changing demographics make it clear that we can no longer afford to 
leave any individual behind as we develop the workforce's skills. All 
citizens will need to meet the increasing demands of employers for 
strong knowledge-based foundation skills in such areas as applied math, 
reading, critical thinking, communication, teamwork and problem 
solving. They will also need technical computer skills that must be 
updated regularly.
    By working together, we can continue to design and improve programs 
to meet the diverse needs of workers within the context of the 
workforce's changing demographics. To ensure that the nation can be 
competitive in the global economy, it is incumbent upon us to include 
older Americans as a valuable source of productive workers. We must 
actively promote lifelong learning, retooling and upgrading of the 
workforce. The Senior Community Service Employment Program can meet 
those needs especially with its current focus on the achievement of 
economic self-sufficiency through unsubsidized employment.
    SCSEP plays an important role in helping older workers obtain the 
necessary skills and access to opportunities that will enable them to 
continue working. However, more needs to be done. SER believes that our 
American society must vastly strengthen the capacity of the workforce 
system to provide comprehensive skills training and professional 
development for the senior population.
    SER sub grantees work closely with the One Stop Career Centers. In 
many areas like SER-Metro Detroit, the services are seamless and 
seniors receive the help they need to obtain employment. Our sub 
grantees are developing memorandums of understanding to facilitate the 
one-stop services needed by seniors, such as job search skills, resume 
writing, and computer skills training. In the future, as these 
partnerships are strengthened, additional unsubsidized employment must 
be generated, which is the common goal of SCSEP and the one-stop 
system.
    One typical success story took place in Vancouver, Washington where 
Mabel Westerfield discovered an entirely new career at age 80. Ms. 
Westerfield was a real estate agent but found the demands of the job 
too physically demanding to continue working. But after being 
unemployed for six months, she realized that she needed additional 
income to supplement social security. She visited the local one-stop 
career center hoping to update her computer skills, and they referred 
her to SCSEP. After meeting with a counselor from SCSEP, she enrolled 
in computer classes and is now enjoying unsubsidized employment as the 
administrative assistant for the Clark County SCSEP program. But she is 
doing more than office work; she actually created a database that was 
adopted by the county and she is happy to be back in the mainstream of 
life.
    One SCSEP sub grantee serves 26 counties in the state of Washington 
through the Seattle-King County Workforce Development Council. SER's 
SCSEP in that state is endorsed by the Washington Workforce Association 
comprising all of the workforce councils in the state. And because of 
that relationship, the integration of the programs with the one-stop 
centers throughout the state is seamless and the programs are meeting 
their job placement goals.
    Historically, SER National has had strong corporate support that 
has resulted in job placement opportunities. Many of the corporations 
partnering with SER are interested in placing Hispanics in jobs. In our 
SCSEP program, one third of our participants are Hispanic and that 
percentage is growing rapidly.
    We are finding that corporate America is coming to the realization 
that the senior population can benefit the economy. In a study of the 
turnover rate for employees 50 and older, it was determined that the 
rate of turnover was one-tenth that of employees under 30, saving 
employers millions of dollars. Seniors bring dependability and loyalty 
to the workplace, customer service skills, the ability to mentor 
younger employees and a willingness to work flexible schedules.
    SER is currently training SCSEP participants for designated jobs 
with two private sector employers who have realized the benefits of 
hiring the senior worker though a Section 502(e) grant to provide 
training in high growth industries. CVS Pharmacy, in fact, began 
preparing for the shortage of workers over ten years ago. After 
studying its older workers, they made surprising discoveries. The older 
worker was much less likely to call in sick than their younger 
colleagues and the myths about diminishing physical and mental 
capacities were just that--myths. Today, CVS has more than doubled its 
over 55 workforce, which now represents over 16% of the company's 
staff.
    After discussions with CVS, SER has put together classroom training 
programs to provide our participants with the skills they need to 
obtain employment in CVS stores in Texas, Florida and Chicago. Updating 
computer skills is a necessity to successfully fill out online 
applications and to be capable of working on a register once they are 
hired. SER is also working with the National Retail Federation to 
provide customer service certification.
    Our SCSEP participants enter an on-the-job training program with 
CVS that pays the company 50% of their wages for 12 weeks. SER is also 
using a Work Experience training mode that allows SCSEP participants 
who have been out of the workforce for many years an opportunity to try 
out a job to see if it is a good fit.
    A second private sector employer is Home Depot, another company 
that has realized the benefits of hiring the older worker. SER will 
begin a training program this summer for participants in Home Depot 
markets across the country. These training resources have been 
invaluable as we address individual needs of our SCSEP enrollees.
    In conclusion, SER National has had many successes in its SCSEP 
program. We are proud of the achievements of our SCSEP participants. 
These seniors are very grateful for the opportunities they have had to 
return to the workforce and contribute to the nation's economy. We 
agree that changes are needed to streamline the program and to make it 
easier to administer. SER will work with DOL leaders to provide input 
in those areas. SER thanks you for the opportunity to speak to you 
today, and we thank you for your efforts to make this program 
accessible to the growing number of low income senior Americans.
                                 ______
                                 
    Chairman Tiberi. Thank you all. I am going to yield to my 
colleague from Texas 5 minutes for some questions.
    Mr. Hinojosa. Thank you, Mr. Chairman. I would like to ask 
my first question of Mr. Leos.
    I was born and raised in south Texas, south of San Antonio 
in a region that is 80 percent Hispanic, and many of the 
comments that you made in your statement are of great interest 
to me. I am happy to learn that you have a partnership with the 
CVS Pharmacy Corporation. As you described your efforts in 
Texas, Florida and Illinois to upgrade computer skills for 
seniors, I am curious as to the current skills of those program 
participants. Many of the senior citizens in the workforce are 
not generally computer-trained. So could you elaborate on these 
particular programs and the results so far?
    Mr. Leos. Yes. We have actually first started our first 
partnership with CVS, this was about a year ago, both in the 
Dallas area, and then we put it out to the rest of the country 
in four other areas, Miami; Chicago; Austin, Texas; and Fort 
Worth, Texas. And what we learned basically again that 
unfortunately the bulk of the participants are not very 
computer literate, and that was the main thing that we 
basically had adjusted in our partnership with the Home Depot.
    The fact remains that our participants are very, very 
experienced as far as working with other individuals, as far as 
what they bring to the table, but technology, unfortunately, 
has passed them by, and this is critical in the workplace, in 
any--virtually any workplace. So they are really at a 
disadvantage in competing with other individuals, and this is 
what really employers are looking for.
    So what we did with CVS, or our experiences because of CVS, 
we have basically gone back and provided additional up-front 
training for participants coming into the Home Depot endeavor 
as well, and with new classes or new groups coming into the CVS 
partnership as well.
    Mr. Hinojosa. The capacity of the workforce system 
certainly does need to be strengthened, but what are some of 
the more specific ideas that SER as an organization has that 
will help the senior population throughout the country?
    Mr. Leos. Well, again, like I said earlier, Americans are 
living longer, healthier, productive lives, and the majority of 
these individuals want to work. But we need to make it easy for 
them to get into the workforce system by giving them additional 
resources, additional tools. Computer technology, obviously, is 
one, but other skills come into play as well.
    A lot of these individuals have really been out of work for 
quite a while as well, so their skills need to be brought up in 
general in working with--in learning how to work with other 
employees as well.
    And I think in the long run, younger employees would also 
benefit from what they have to offer.
    Mr. Hinojosa. Thank you for your response.
    Mr. O'Donnell, we have heard much information on the 
performance of the Title VI Native American aging programs. 
Since your organization represents about 240 of these grantees, 
won't you please give us a brief status overview, and do your 
reauthorizing recommendations include this group?
    Mr. O'Donnell. Yes, Mr. Hinojosa, our proposals on 
reauthorization do very much include our Title VI Native 
American organizations. They are a vital part of our national 
organization.
    I think based on the input that we have received from our 
members, that our Native American agencies are working very 
closely with the National Indian Health Service. And in order 
for them to integrate their services for older adults and their 
families, they have to be able to be very versatile in drawing 
upon a number of different Federal and State and local 
resources in order to meet the needs of their population.
    For example, we have heard the need for greater flexibility 
among Native American organizations under Title III of the 
Older Americans Act for our nutrition programs. Because there 
are one set of rules for Title VI and one set of rules for 
Title III, they would like greater flexibility to be able to 
pool their resources under--especially for the congregate and 
home-delivered meal program, from those two sources.
    Transportation obviously is a large challenge in most rural 
areas, and on many of our Native American territories they 
really require a number of Federal and State and tribal 
organizations to draw the resources necessary to bring their 
members to healthcare facilities.
    I think the intergenerational aspect of the tribal 
organizations is also very strong. In order to support families 
who are caring for their aging family members, their programs 
have to be strengthened and expanded.
    So I think in the areas of greater flexibility on 
nutrition; more resources, especially to provide access to 
healthcare, and that includes transportation; and last, 
building the capacity of American Indian families to care for 
one another, those are the three areas where they would like to 
see improvement and growth.
    Mr. Hinojosa. Thank you for informing our Committee. We 
appreciate your response.
    With that, Mr. Chairman, I yield back.
    Chairman Tiberi. Thank you, Mr. Hinojosa.
    Director Lawrence, one of the key issues that we in 
Congress face is the changing demographics of our Nation that 
has been mentioned as we work toward reauthorization.
    You mention in your testimony that Ohio is targeting those 
that are most in need. With respect to long-term care, you have 
been a leader in trying to change the focus. Can you explain 
how you, in Ohio, have used that philosophy in changing the way 
that you all approach long-term care in meeting seniors needs?
    Ms. Lawrence. Yes, Mr. Chairman. We are really excited 
about what is happening right now in Ohio because we have 
observed, after having our home- and community-based waiver for 
20 years--in about the last 14 it has been statewide--that the 
number of people who are staying home and out of nursing homes, 
out of other institutional care, is growing. It is growing 
daily actually. And the number of people on Medicaid in nursing 
homes is decreasing, and the two lines are crossing, and that 
is the way it should be.
    Originally under PASSPORT, about half of the people ended 
up going to a nursing home after spending several years in the 
program. Now that number is down to 40 percent, and the number 
of people who are aging at home in place and dying while they 
are still at home has increased from 30 percent to close to--
going over 40 percent.
    So we really are shifting the paradigm. The nursing homes 
notice it. They, too, have changed. Nursing homes are much more 
rehab centers now than they are long--there are--the number of 
people who are in long-term care until they die is decreasing. 
And more people are either accessing assisted living or staying 
at home, and we are helping to make that possible.
    We hope to do a much better job starting in the next fiscal 
year of July of accessing people to give them even more 
information sooner before the family decides we need to send 
Mom to a nursing home, because there are other alternatives 
that turn out to be something they prefer, and they save the 
State and the Federal Government a lot of money.
    Chairman Tiberi. That is great. Thank you.
    You also recommend that Congress, through reauthorization, 
empower States to expand funding for innovative programs that 
offer seniors greater opportunities for community-based 
support. Are there barriers in the current law to allow you to 
have some flexibility to do innovative things in the current 
Older Americans Act?
    Ms. Lawrence. Mr. Chairman, repeat the first part of what 
you said.
    Chairman Tiberi. You--through your written testimony you 
recommend that we in Congress, when we reauthorize this, 
empower States to expand funding for innovative programs that 
offer seniors greater opportunity to community-based services. 
And my question would be is there a prevention, are you 
prevented from doing that today under the current act?
    Ms. Lawrence. Mr. Chairman, thank you for repeating that.
    The thing that prevents us is probably funding more than 
anything else. I believe the recommendation would be that the 
Secretary--Assistant Secretary of the Administration on Aging 
be given some flexible funding that she can use to grant funds 
upon application from the State units on aging to try different 
things, because that is the way you learn what really works.
    I really have to compliment both CMS and the Administration 
on Aging for their joint funding. It is a unique project. They 
put their money together to create the Aging and Disability 
Resource Center Grants. Twenty-four States have them now as 
pilots. They are working. I think it is the wave of the 
future--you heard references to it a couple of different ways. 
I hope Ohio will get one in the next go-round. I think we will.
    But I think it will be in every area agency, and that is 
the kind of innovation that the Secretary is looking for. So--
and who knows what else there is out there. You have to give 
States the opportunity to develop new ideas. If we are going to 
grow from--in Ohio this year we have 180,000 people over 85; by 
2045 we are going to have a million people over 85. And no 
matter how healthy and better off they are, there is still 
going to be a lot more people in need of help, so we need all 
the innovation we can get.
    Chairman Tiberi. Good points, thank you.
    Mr. O'Donnell, given that large budget increases, per your 
testimony, would be difficult in our current situation, what 
other changes, in your mind, to the Older Americans Act should 
we take up that could improve services to seniors?
    Mr. O'Donnell. Mr. Chairman, I think efficiency, cost 
savings in the areas of healthcare are absolutely essential. If 
we look at the value of prevention and assisting older adults 
in managing chronic illness and disability, the Aging and 
Disability Resource Centers are a wonderful example of how we 
can integrate housing, healthcare and supportive services both 
for older adults and younger persons with disabilities offering 
one-stop shopping to access those benefits.
    The second area I think that we should take a close look 
at, because we all know that the rising expenditures under our 
Medicaid program is probably one of the fastest-growing 
portions of every State budget. How we can look at further 
investments in the Older Americans Act at$1.37 billion--my last 
estimate of what that represents in terms of total Federal 
spending for older adults is less than 1 percent. But what an 
impressive return on investment the Nation receives for 
increasing dollars for prevention, both in terms of nutrition, 
access to healthcare, and, as we put more and more prescription 
drugs in the hands of older adults, helping them to manage 
those drugs effectively in the treatment of chronic healthcare 
conditions.
    My belief is that in the next 20 years our biggest 
challenge in terms of our healthcare system is empowering older 
adults and their families to manage multiple chronic 
conditions. And one very effective program that we have seen in 
our own area is medication management. In Decatur, Illinois, 
for example, through our Macon County Health Department, which 
is also our case management agency--and soon to open an ADRC on 
July 1st of this year--they have been operating a one-county 
medication management program with two-and-a-half full-time 
equivalent nurses. They are serving 81 clients at the present 
time. They are helping those individuals manage diabetes and 
other chronic healthcare conditions, getting rave reviews from 
physicians, and enabling the individual to remain at home and 
effectively manage their chronic healthcare condition.
    That is my belief, that if we can invest in expanding those 
kinds of programs, which are only in 1 of my 16 counties, if we 
could build on the base of local health departments case 
coordination units and ADRCs, we will be able to help them 
manage those chronic conditions at a much lower cost than 
inappropriate use of hospital ERs and unnecessary placement in 
long-term care facilities.
    Chairman Tiberi. Well, I hope you are right. I voted for 
the Medicare prescription drug benefit based upon what you just 
said. In talking to physicians in central Ohio who primarily 
work with the elderly about the future cost savings by this 
thought of prevention, and obviously for someone like Director 
Lawrence who deals with Medicaid dollars, it is going to have 
an impact on reducing the Medicaid dollars as well. We haven't 
gotten any credit for that yet, but hopefully once this program 
gets unveiled and the real results begin to occur, what you are 
saying is truly going to happen. Thank you for your comments.
    Ms. Metzger, you mention both in your written testimony and 
in your verbal testimony the issue of cost sharing, if it were 
permissive. If it were permissive, how many more seniors do you 
think could participate in the program without increasing the 
Federal portion of the investment, if that makes sense? If we 
permitted cost sharing, how many more seniors could participate 
without increasing the Federal share?
    Ms. Metzger. I think a large number would.
    Our participants are proud people, and they want to pay for 
what they receive, and cost sharing helps them. I mean, I can't 
tell you the number of times that we go out and customers say, 
well, how much does this cost, tell me how much I should 
contribute, what should I do, and we can't tell them. We can 
give them a suggested contribution level, but they want to pay 
their fair share, as do their children.
    I think we are reaching an age where--I would support my 
mother's nutrition needs in a flash if she needed that, and 
certainly I suspect you would as well, but cost sharing is a 
sliding scale. It allows us the flexibility as a program to 
actually make more dollars.
    Chairman Tiberi. What are the biggest barriers to cost 
sharing, and who is opposed to it?
    Ms. Metzger. I beg your pardon?
    Chairman Tiberi. What are the biggest barriers to cost 
sharing, and who is opposed to it?
    Ms. Metzger. I think a misunderstanding of what cost 
sharing is--cost sharing sounds like, well, if you can't do it, 
you can't have it. But that is not what we are talking about. 
What we are talking about is a sliding scale where a person 
could come in and say, I want to pay for my meals, how much 
should I pay; and we can say, this is where you slide out.
    This is not unlike other programs in the act, and I believe 
that it is something that seniors would desire. I mean, as 
evidenced in my own program, 40 percent of our customers are on 
a cost-sharing basis.
    Chairman Tiberi. Thank you.
    Those bells mean that we have a vote, so I am going to have 
to leave here in a little bit. And we are going to go ahead 
and, after the final questions, adjourn our Committee today. I 
want to assure everybody that there are a number of things 
going on, so all 11 Members couldn't be here today, but your 
testimony is very important to this process, as well as this 
question-and-answer session, which I will wrap up here with a 
question about Home Depot.
    In your written testimony you mention the Home Depot 
program coming to the full State of Ohio. Yesterday Home Depot 
announced a new store that was going to open about a mile from 
my home. How can we--first of all, can you talk a little bit 
about the partnership and what it means to older Americans, and 
how can we encourage other private-sector employers to do what 
Home Depot and CVS have done, in your mind?
    Mr. Leos. I think that, first of all, the employers need 
to, first of all, be educated on the wealth of knowledge, 
experience that these individuals bring to the workplace. The 
Home Depot, CVS and others, actually, have already realized 
that this is a valuable group that will lend value to their 
organizations. And the market is getting so competitive in the 
sense that this group needs to contribute, and rightly so can 
contribute.
    But to specifically answer your question, I think it is 
more of an educational experience that we have to put out there 
and realize--and make the employers realize the value of these 
individuals and their contributions. And again, at the other 
side, also the bottom line is very important to employers, so 
consequently we should do everything with it that we can to 
make it easier for the employer to hire this particular 
population.
    Chairman Tiberi. Well, I compliment you for being involved 
in this. And thanks to all of you--yes, Director.
    Ms. Lawrence. I just wanted to tell you, Mr. Chairman, in 
Ohio AARP is using--Home Depot is cooperating. I will be happy 
to check to be sure that they are covering the one in--
    Chairman Tiberi. All right.
    Ms. Lawrence. Or wherever it is.
    Chairman Tiberi. Great. Thank you. Thank you all for coming 
to Washington. This is a process that we are just beginning. We 
look forward to working with you and all the stakeholders, both 
me and Mr. Hinojosa and Chairman Boehner, as we go down the 
road of reauthorizing the Older Americans Act. And thank you 
for your service. My aunt is a Meals on Wheels volunteer, and I 
think she gets more out of it than what the senior gets because 
she just is inspired by the program. So thank you for what you 
do, and thank you all for, again, what you have contributed to 
this process as we begin.
    So with that, I thank you officially for your time and 
participation. And if there is no further business, this 
Subcommittee stands adjourned.
    [Whereupon, at 10:57 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
